                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-14020004                                                                     Page 1 of 1



         We received an allegation that a company (Company A) 1 with a pending SBIR Phase II
         proposae had potential financial issues, based on a financial capability review for the proposal
         and examination of previous NSF and other federal 3 awards to a closely-related company
         (Company Bt involving the same personnel. 5

         Information gathered in the course of a separate, recently-closed investigation6 of Company B
         indicated that the co-PI on the pending Company A proposal 7 was legitimately employed by both
         Companies A and B (as company president), and that Company B had carried out research in the
         proper facilities and spent the funds as laid out in the proposals. We concluded that these
         findings about the co-PI and Company B answered the concerns raised about the pending
         proposal and Company A. There are no umesolved issues.

         Accordingly, this case is closed.




         2


         4




NSF OIG Form 2 (11/02)
